<html>
<title> - AGRICULTURAL GUESTWORKER ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      AGRICULTURAL GUESTWORKER ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1773

                               __________

                              MAY 16, 2013

                               __________

                           Serial No. 113-12

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-975                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 16, 2013

                                                                   Page

                                THE BILL

H.R. 1773, the ``Agricultural Guestworker Act''..................     3

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................    56

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    57

                               WITNESSES

H. Lee Wicker, Deputy Director, North Carolina Growers 
  Association
  Oral Testimony.................................................    60
  Prepared Statement.............................................   110

Christopher Gaddis, Chief Human Resources Officer, JBS USA 
  Holdings, Inc.
  Oral Testimony.................................................   114
  Prepared Statement.............................................   117

John B. Graham, III, President, Graham and Rollins, Inc., 
  Hampton, VA
  Oral Testimony.................................................   122
  Prepared Statement.............................................   124

Arturo S. Rodriguez, President, United Farm Workers of America
  Oral Testimony.................................................   130
  Prepared Statement.............................................   132

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by H. Lee Wicker, Deputy Director, North 
  Carolina Growers Association...................................    62

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................   139

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................   160

Prepared Statement of the the Honorable Zoe Lofgren, a 
  Representative in Congress from the State of California, and 
  Ranking Member, Subcommittee on Immigration and Border Security   165

Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   169

Prepared Statement of the Honorable Doc Hastings, a 
  Representative in Congress from the State of Washington........   178

Prepared Statement of the American Farm Bureau Federation........   181


                      AGRICULTURAL GUESTWORKER ACT

                              ----------                              


                         THURSDAY, MAY 16, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 12:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, King, Holding, 
Lofgren, Jackson Lee, Gutierrez, and Garcia.
    Staff Present: (Majority) George Fishman, Chief Counsel; 
Stephanie Gadbois, Counsel; Graham Owens, Clerk; and (Minority) 
David Shahoulian, Minority Counsel.
    Mr. Gowdy. Good afternoon. I apologize to everyone in the 
audience and especially my colleagues for having another vote 
in another Committee. But we are here because the Subcommittee 
on Immigration and Border Security will have a hearing on H.R. 
1773, which is the ``Agricultural Guestworker Act.''
    And the Committee will come to order.
    Welcome, again, to all of our witnesses.
    I will recognize myself for an opening statement and then 
the Ranking Member, Ms. Lofgren.
    So we are now here to begin our consideration of this H.R. 
1773, the ``Agricultural Guestworker Act.'' This legislation 
will provide American farmers with what they have asked for, 
needed, and deserved for many years: a workable and fair 
guestworker program to help them grow and harvest our food. Of 
course, this benefits each of us.
    I congratulate Chairman Goodlatte for introducing this 
legislation. I thank my colleagues on both sides of the aisle 
who have informed and instructed my understanding of these 
issues. And I especially thank the farmers and others in the 
agricultural industry for helping me understand the challenges 
they face in meeting this issue of national significance.
    We would all do well to place ourselves in the shoes of 
farmers, because we sometimes lose track of what it takes for 
growers to actually put this bounty on the world's tables. We 
lose track of what it takes for them to give us the safest, 
most efficient, most reliable agricultural system in the world.
    For those crops that are labor-intensive, especially at 
harvest time, hard labor is critical. At our February hearing 
on agricultural guestworker programs, I asked why H-2A program 
was so underutilized. I noted that, in the eyes of many 
farmers, the program seems designed to fail. It is cumbersome 
and full of red tape. Growers have to pay wages far above the 
locally prevailing wage, putting them at a competitive 
disadvantage against growers who use unlawful labor.
    Growers are subject to onerous rules, such as the 50 
percent rule, which requires them to hire any domestic workers 
who show up even after they have unsuccessfully recruited for 
U.S. workers and their H-2A workers have started working. Under 
the H-2A program, growers can't get workers in time to meet 
needs dictated by the weather. And then the final indignity: 
Growers are constantly subjected to litigation by those who 
don't think the H-2A program should even exist.
    Growers need a fair, workable guestworker program that 
gives them access to the workers they need when they need them 
at a fair wage and with reasonable conditions. They need a 
partner in the Federal Government, not an adversary. Such a 
program will benefit not only farmers but also American 
farmworkers. If growers can't use a program because it is too 
cumbersome, none of its workers' protections will benefit any 
actual workers.
    H.R. 1773, the Agricultural Guestworker Act, jettisons the 
dysfunctional features of the H-2A program and creates a new H-
2C agricultural guestworker program that successfully meets the 
needs laid out.
    This bill contains a streamlined petition process based on 
the H-1B program and allows growers to hire guestworkers at 
will once E-Verify has been made mandatory. The bill puts the 
Department of Agriculture in charge of H-2C. The bill requires 
growers pay guestworkers the local prevailing market-based 
wage. It does not require growers to additionally provide free 
housing or international travel reimbursements to guestworkers.
    In order to discourage vexatious, frivolous, and abusive 
litigation against growers, the bill allows growers and 
guestworkers to agree to binding arbitration and mediation of 
grievances. It also provides H-2C workers are not eligible for 
taxpayer-funded lawyers under the Legal Services Corporation 
Act.
    In order to prevent a labor force shock, the bill allows 
illegal immigrants to participate in the H-2C program, just as 
can any other foreign national, so long as they abide by the 
terms and conditions of the program.
    I look forward to hearing today's witnesses and learning 
how H.R. 1773 would benefit them.
    I now recognize the gentlelady from California, the Ranking 
Member, Ms. Lofgren.
    [The bill, H.R. 1773, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Ms. Lofgren. Thank you, Mr. Chairman and also Chairman 
Goodlatte, for holding this hearing on Mr. Goodlatte's 
Agricultural Guestworker Act.
    As with the hearing we just had on Mr. Smith's Legal 
Workforce Act, I understand this hearing is another in a series 
of hearings meant to examine what is broken in our current 
immigration system.
    Nowhere is this evidence of brokenness more evident than in 
our agricultural sector. We know from the countless hearings we 
have held on this topic that as much as 75 percent of the on-
the-farm workforce is undocumented, and that is an incredible 
figure. This situation is untenable for both farmers and 
farmworkers, who together provide an invaluable service to our 
citizens, our economy, our country. They deserve a system that 
works. We all do.
    That is why it is so significant that, just last month, 
farmers and agricultural trade associations from all over the 
country and in every sector of the agricultural industry, from 
apples, beekeeping, sheep herders, tobacco, citrus, Christmas 
trees, berries, blueberries, onions, peaches, potatoes, 
vegetables, eggs, the Wine Institute, and everybody in between, 
everybody agreed with the United Farm Workers to reach an 
historic agreement to reform our agricultural labor system.
    The agreement that everybody signed on to, which came after 
many months of negotiations, is designed to provide a system 
that works for both growers and farmworkers. In doing so, it 
will help to support the millions of jobs that depend upon the 
agricultural industry and will prevent us from becoming 
increasingly dependent on food produced overseas.
    The agreement includes both an earned legalization program 
for the current undocumented agricultural workforce and a new 
visa program to address future farm labor needs. It is a 
sensible solution, and I applaud all of the people who worked 
hard to make it a reality.
    Let me pause briefly to note that, for years, we talked 
about the former ag jobs compromise that our former and, I 
would say, beloved colleague, Howard Berman, played such a 
critical role in forging. After the ag jobs compromise fell 
apart, it was unclear how the parties would be able to come 
together once more to find a mutually agreeable solution. 
Significantly, the proposal that the parties recently reached 
has even more support than the ag jobs compromise.
    Today's agreement is supported by organizations 
representing large farming, small farmers, fruits and 
vegetables, dairy, sheep herders, beekeepers, landscaping, farm 
bureaus around the country. Over 70 different agricultural 
employer organizations support the agreement, including the 
American Farm Bureau, the National Council of Agricultural 
Employers, the National Council of Farmer Cooperatives, USA 
Farmers--which I understand Lee Wicker, our witness, is 
treasurer of that association--the Western Growers Association, 
the National Milk Producers Federation, the Western United 
Dairymen, farm bureaus across the country, including Georgia, 
Florida, and Louisiana, and even the Idaho Dairymen's 
Association.
    All of these organizations agree, the current immigration 
system is hurting our agricultural sector. That is an opinion I 
share, and it is an opinion that I know is shared by Chairman 
Goodlatte. His bill, I know, is a sincere effort to address the 
dysfunction. And I appreciate this hearing as a way of studying 
the proposal while considering ways to fix the broken system.
    As this Committee prepares to enter the national discussion 
about reforming our immigration system, we will need to fully 
understand each aspect of a top-to-bottom reform of our system 
just as much as we will need to understand how each aspect is 
interrelated.
    I must admit, however, that I hope this hearing will help 
convince the Chairman and other Members on his side of the 
aisle to accept and support the agreement that has been reached 
between the diverse coalition of grower interests and the UFW. 
Considering the support for that agreement all across the 
farming community, I am not sure why we would craft something 
completely new that is opposed by important members of that 
community.
    I must also note at least two elements of that deal that 
will prevent it from ever becoming law.
    First, 1773 provides an opportunity for undocumented 
farmworkers to apply for a new temporary worker visa created in 
the bill. But those visas would only allow workers to remain 
here for a period of 18 months even if they have been here for 
decades and have spouses and children in the United States. The 
reality is, this program, this proposal in this bill won't 
work. By asking such people to come out of the shadows, 
register, and obtain a temporary visa, we are essentially 
asking them to report to deport. People will not come out of 
the shadows, and farmers will not have access to the stable 
supply of authorized workers that they need going forward.
    Second, H.R. 1773 would dramatically reduce wages and other 
protection for farmworkers, who are already the least-paid and 
-protected workers in the United States. Indeed, H.R. 1773 
would create a program with lower wages and fewer protections 
than the Bracero Program that is widely recognized as a black 
eye in our Nation's history.
    The country needs us to find a solution to the agricultural 
labor problem, but I believe the superior solution is the 
landmark agreement between farmers and farmworkers. I am 
grateful the United Farm Workers, the American Farm Bureau, and 
all of the other agricultural employers and associations are 
putting us on what I believe will be the right track.
    And I yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from California.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, for any opening statement 
he might think appropriate.
    Mr. Goodlatte. Well, thank you, Chairman Gowdy. And thank 
you and Ranking Member Lofgren for holding this doubleheader of 
hearings on our step-by-step approach to addressing all of the 
issues related to immigration reform that are so badly needed 
in our country.
    As we seek to reform our immigration system as a whole, we 
must take the time to look at each of the individual issues 
within this system to ensure that we get immigration reform 
right. For this reason, I thank the Subcommittee Chairman for 
holding this important hearing.
    H.R. 1773 is a bill that will replace our outdated and 
unworkable agricultural guestworker program and bring us one 
step closer to solving the larger immigration puzzle. As past 
hearings on the H-2A program have revealed, farmers avoid using 
the existing agricultural guestworker program because it 
burdens them with excessive regulations and exposes them to 
frivolous litigation.
    The new guestworker program created under the Ag Act, known 
as the H-2C program, remedies this problem by streamlining 
access to reliable workforce and protecting farmers from 
abusive lawsuits. It also allows dairy farms and food 
processors to participate in the program.
    The new H-2C program will be market-driven and adaptable. 
It will reduce bureaucratic red tape by adopting an 
attestation-based petition process and by allowing H-2C 
employers in good standing who agree to abide by additional 
terms and conditions the opportunity to be designated as 
registered agricultural employers, further expediting the 
hiring process. Moreover, subject to certain conditions, H-2C 
workers can be employed under contract or at will, making it 
easier for workers to move freely throughout the agricultural 
marketplace to meet demand.
    We must also learn from the mistakes of the past. As a 
result, the following pitfalls of the H-2A program will not be 
repeated in the new H-2C program: The Ag Act will not require 
growers to hire and train unneeded workers after the work 
period begins. The Ag Act will not require employers to provide 
free housing and transportation for their workers, and farmers 
will pay guestworkers the typical wage paid to agricultural 
employees in their locality, not an adverse-effect wage dreamed 
up by Labor Department bureaucrats.
    However, the new H-2C program will be at its core a 
guestworker program. Unlike the agricultural worker provisions 
in the Senate immigration bill, the Ag Act does not create any 
special pathway to citizenship for unlawful immigrants. The 
bill simply allows unlawful immigrants to participate in the 
new H-2C guestworker program, just as other foreign nationals 
can, provided a job is available. They are required to abide by 
the same exact conditions as foreign agricultural workers 
currently working legally in the United States, including the 
requirement to leave the U.S. periodically and the prohibition 
on family members accompanying the worker.
    Under the Ag Act, H-2C workers can be admitted for up to 18 
months to work in a job that is temporary or seasonal. For work 
that is not temporary, H-2C workers can be admitted initially 
for up to 36 months and up to 18 months on subsequent H-2C 
visas. At the end of the authorized work period, an H-2C worker 
must remain outside the United States for a continuous period 
that is equal to at least one-sixth of the duration of the 
worker's previous stay as an H-2C worker or 3 months, whichever 
is less. These requirements will be strictly enforced.
    To encourage guestworkers to abide by these rules, a small 
portion of guestworkers' wages will be held in escrow until 
they return home to collect the wages in their home countries. 
And if a guestworker abandons his or her job, an employer will 
be required to notify the Department of Homeland Security 
within 24 hours. Workers who do not leave the U.S. when 
required will be barred from re-entry into the U.S. for from 3 
to 10 years.
    As a general rule, the program will be limited to 500,000 
visas per year, although individuals working in the U.S. 
unlawfully who transition into the H-2C program will not count 
against this cap.
    Finally, the H-2C program is fiscally responsible. H-2C 
guestworkers will not be eligible for Obamacare subsidies or 
for other Federal public benefits. They are also not eligible 
for Federal refundable tax credits, the Earned Income Tax 
Credit, or the Child Tax Credit.
    It is essential that we examine solutions to our broken 
immigration system methodically, for if we fail do so, we risk 
repeating some of the same mistakes of the past.
    I am pleased to welcome all of our witnesses here today. I 
would say to them and to all the Members of this Committee and 
others in the Congress that we look forward to working with 
them on this issue. And this hearing on the specific 
legislative language of this bill is a good starting point to 
talk about the issues related to agricultural immigration 
reform, and we will benefit from the testimony of these 
witnesses today.
    I look forward to their valuable testimony, and I thank the 
Chairman.
    Mr. Gowdy. I thank Chairman Goodlatte.
    Without objection, other Members' opening statements will 
be made part of the record.
    On behalf of all of us, we welcome our distinguished panel 
of witnesses.
    I will begin by swearing you in, so if you would all please 
rise and lift your right hands.
    [Witnesses sworn.]
    Mr. Gowdy. May the record reflect all the witnesses 
answered in the affirmative.
    I will introduce you en bloc and then recognize you 
individually for your 5-minute opening statement.
    Just to be clear, your entire statement is already part of 
the record. So to the extent it may be more than 5 minutes, if 
we could get you to edit it. The lighting system means what it 
normally means: green, go; yellow, you have about a minute 
left; and red, go ahead and, if you can, wrap up that thought.
    I am pleased to first introduce Mr. Lee Wicker. He is the 
deputy director of the North Carolina Growers Association, the 
largest H-2A program user in the Nation. Prior to holding this 
position, he worked for the North Carolina Employment Security 
Commission as the technical supervisor for farm employment 
programs and the statewide administrator for the H-2A program. 
Mr. Wicker has been growing flue-cured tobacco with his family 
in Lee County, North Carolina, since 1978. He graduated from 
the University of North Carolina at Chapel Hill.
    Mr. Christopher Gaddis is the head of human resources for 
JBS USA Holdings, Inc. With 140 production facilities 
worldwide, JBS is the largest animal protein processor in the 
world. Prior to his current role, he served as the general 
counsel for JBS, USA, where he oversaw litigation mergers, 
acquisitions, and corporate compliance. Mr. Gaddis received 
both his J.D. And B.A. In political science from the University 
of Colorado.
    Mr. John Graham III is the fourth-generation president and 
owner of Graham and Rollins in Hampton, Virginia, a crab-
processing plant that has operated as a family-owned business 
since 1942. He also runs Hampton Seafood Market, which offers 
retail seafood and dining about a mile away from the plant. We 
would also like to welcome Mr. Graham's father, John Graham, 
Jr., who is in attendance and is the third-generation operator 
of Graham and Rollins. Mr. Graham attended Randolph-Macon 
College in Ashland, Virginia.
    And, lastly, we would like to welcome Mr. Arturo Rodriguez. 
He is the president of the United Farm Workers, which is a 
position he has held since 1993. He began serving full-time 
with UFW in 1973. And Mr. Rodriguez has more than 35 years' 
experience organizing farmworkers and negotiating UFW 
contracts. Mr. Rodriguez earned an M.A. In social work at the 
University of Michigan in 1971.
    Welcome, each and all of you.
    And, with that, we will start with you, Mr. Wicker, and 
recognize you for your 5-minute opening statement.

         TESTIMONY OF H. LEE WICKER, DEPUTY DIRECTOR, 
               NORTH CAROLINA GROWERS ASSOCIATION

    Mr. Wicker. Good afternoon, Chairman Gowdy, Ranking Member 
Lofgren, and the Committee Members. I am Lee Wicker, deputy 
director of the North Carolina Growers Association. I am also a 
member of USA Farmers, the Nation's largest ag guestworker 
employer group.
    NCGA and USA Farmers support Chairman Goodlatte in his 
effort to provide ag with a new program that provides reliable 
access to labor. Thank you for holding this hearing on a 
critical issue for labor-intensive agriculture.
    NCGA has been the largest H-2A user in the Nation for more 
than 15 years, and our 750 farmers will employ more than 7,500 
H-2A workers and thousands more U.S. Workers this season.
    In previous hearings, I have highlighted the chronic 
problems of H-2A. It is expensive, overly bureaucratic, 
unnecessarily litigious, and excludes some farms and 
activities. The measured reforms in H.R. 1773 solve most of the 
flaws with our current system, creating a new program that all 
ag producers can use. This proposal is evidence that the U.S. 
can have a workable farmworker program that treats workers well 
and carefully balances the critical elements of worker 
protections while promoting economic viability on our farms.
    This bill offers significant reforms to the prohibitive 
costs farmers currently face and makes improvements in other 
important areas. It provides for a market-based prevailing wage 
floor that surpasses the Federal minimum, authorizes piece-rate 
pay systems to promote higher earnings, and offers structured 
portability to enable worker movements from employer to 
employer.
    The bill makes farm and worker obligations clear and 
understandable and creates a streamlined legal dispute 
resolution system to solve farmworker complaints quickly and 
efficiently. These improvements will provide a viable 
alternative to employing illegal aliens.
    The bill maintains valuable employee benefits and critical 
worker protections for domestic and foreign workers, like 
continuation of the minimum hours worked guarantee, mandatory 
workman's comp insurance, a hiring preference for U.S. workers, 
and enables undocumented workers to come out of the shadows to 
work legally.
    The bill allows farms that currently provide housing to 
continue but doesn't prohibit farms without housing from 
participating.
    The proposal imposes a robust enforcement regime and a 
strong penalty structure for violations. All the economic 
benefits and worker protections in this bill will provide 
workers who accept these jobs assurance: They will enjoy a 
higher wage and benefit package, a safer work environment, and 
quicker resolution of their grievances than if they work on 
U.S. farms illegally.
    It is clear. There is bipartisan, bicameral consensus. Our 
Nation needs a modern and flexible future flow ag guestworker 
program. In fact, this bill encompasses many elements of the 
Senate Gang of Eight ag proposal, such as: a simplified 
application process under USDA; elimination of the unnecessary 
50 percent rule and worthless newspaper ads; savings on 
acquisition fees; open to all ag sectors, including some food 
processing; authorizes longer visas to respond to evolving farm 
production practices; enables undocumented workers to obtain 
legal status and keep working; provides at-will and contract 
employment to allow workers and growers flexibility to decide 
for themselves what works best; and provides portability so 
workers can seek additional and/or alternative opportunities in 
the farm marketplace.
    Although the 750 farmers of NCGA and others are strongly 
opposed to an arbitrary cap and a new program, we acknowledge 
the 500,000-per-year cap in the H-2C program is far more 
reasonable than the woefully inadequate annual cap in the 
Senate bill. Farmers need the program to be uncapped to avoid 
devastating economic losses that will force unprecedented farm 
bankruptcies when crops are lost because partisan, political 
systems and administrative processes will never react quickly 
enough as crops ripen, then rot. Market opportunities are lost, 
contracts with customers go unfilled and are lost, and 
consumers are forced to pay higher prices for a smaller supply 
of fresh fruits and vegetables.
    While not perfect, NCGA's board voted unanimously to 
support H.R. 1773 because it provides growers with a program 
that is substantially more predictable and user-friendly. It is 
a win for farmers, a win for farmworkers, and a win for 
America. It will create jobs and save jobs in the United 
States.
    And I would like to enter into the record a comprehensive 
study completed by economist Michael Clemens that has just been 
published by the Center for Global Development and the 
Partnership for a New American Economy that shows clearly and 
demonstrably that legal guestworkers save and create jobs for 
Americans on and off the farm.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Wicker. It is critical to get this public policy right. 
Our U.S. Farmers cannot afford and many will not survive 
another policy failure like 1986.
    The H-2C program will provide a fair, predictable, 
efficient, and affordable process for employing workers in 
agricultural jobs. Farmers and farmworkers want to comply with 
labor and immigration laws. Congress should pass the 
Agricultural Guestworker Act so they can.
    Thank you, and I look forward to your questions.
    Mr. Gowdy. Thank you, Mr. Wicker.
    [The prepared statement of Mr. Wicker follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gowdy. Mr. Gaddis?

TESTIMONY OF CHRISTOPHER GADDIS, CHIEF HUMAN RESOURCES OFFICER, 
                     JBS USA HOLDINGS, INC.

    Mr. Gaddis. Mr. Chairman, Members of the Committee, thank 
you for this opportunity to testify on H.R. 1773.
    My name is Chris Gaddis, and I am the human resources chief 
officer for JBS USA. JBS, USA has approximately 60,000 
employees in the U.S., and I did a straw poll; I believe we 
have facilities in all but 5 of your States.
    My remarks today are on behalf of JBS USA, but they are 
also on behalf of the Food Manufacturers Immigration Coalition, 
a broad coalition of the leading meat and poultry processors 
and trade associations, including the North American Meat 
Association, the American Meat Institute, the National Chicken 
Council, the National Turkey Federation, the National 
Cattlemen's Beef Association, and the National Pork Producers 
Council.
    We thank the Chairman and his cosponsors for the 
introduction of H.R. 1773 and for its constructive attention to 
an essential component of immigration reform, addressing the 
labor needs of U.S. employers and also the sources of such 
labor. As we see it, for reform to be meaningful, we must 
reckon with the needs of U.S. employers for less-skilled labor 
to work jobs that, due to various circumstances, go unfilled by 
U.S. workers, and we must address document fraud and identity 
theft.
    To begin, we support the definition of, quote, 
``agricultural labor or services,'' unquote, contained in this 
bill. We believe it important that the legislation recognizes 
that all activities required for the, quote, ``preparation, 
processing, or manufacturing of a product of agriculture for 
further distribution,'' unquote, are an essential ingredient in 
the agricultural labor equation. These activities, which 
include the preparation and processing of animal protein 
products for further distribution in the food chain, are a 
critical second step in the food supply chain by which our 
companies feed the United States and the world.
    We also support the bill's provision of 36 months of 
uninterrupted stay for H-2C workers who obtain positions in 
agricultural manufacturing. The positions we offer are 
permanent, full-time, nonseasonal jobs. After an initial 
probationary period, our employees receive full benefits, 
including 401(k). The 36-month stay period is the minimum 
necessary for our companies to invest in the training of a new 
employee and then to reap some benefit prior to the employee 
needing to leave the country.
    And we note that the legislation only provides for maximum 
subsequent periods of stay of 18 months and does not allow H-2C 
workers to bring spouses or minor children with them. We 
encourage the Committee to reconsider these restrictions when 
comes to agricultural manufacturing and look forward to working 
with the Committee further on this topic.
    Next, we commend the bill's sponsors for taking a practical 
approach to dealing with labor that is presently here in 
unauthorized status. By granting eligibility for H-2C work to 
any person physically present in the United States on the date 
of the bill's introduction, the bill recognizes the 
unlikelihood that this population will be removed 
involuntarily, it maximizes the pool of persons who would 
qualify for H-2C status, and it avoids encouraging unauthorized 
migration by people who may read the bill from afar.
    We also note that the bill contains various requirements 
that protect rights of U.S. workers vis-a-vis H-2C workers and 
the rights of H-2C workers vis-a-vis prospective employers. 
This was covered in greater detail by Mr. Wicker. The companies 
in our coalition want to be very clear: We do not want to be 
associated with a program that would facilitate or allow 
improper treatment of domestic or foreign workers, and we 
therefore commend your direct confrontation of those issues.
    Last, there is an essential ingredient to immigration 
reform--Julie Myers Wood was here earlier. I have often heard 
that politics makes for strange bedfellows. JBS USA, in 2007, 
acquired Swift and Company, which in December of 2006 was the 
subject of the then-largest worksite enforcement action in the 
history of the Department of Homeland Security. At that point 
in time, Julie Myers Wood was the director of ICE. Over the 
last 3 years, Ms. Wood has done an incredible job on behalf of 
JBS as a private consultant, bringing us from where we were 
into the IMAGE program. JBS has the benefit of the size and 
scope to bring someone like Ms. Wood in. So I commend this 
group's addressing not just E-Verify but also trying to get 
their arms around identity theft in greater detail.
    In conclusion, the Food Manufacturers Immigration Coalition 
thanks Chairman Goodlatte and this Committee for taking an 
important step forward in the immigration reform process in the 
introduction of H.R. 1773 and its consideration of Congressman 
Smith's employment verification legislation. We understand that 
the road to effective immigration is not a straight line, but 
we believe in and appreciate the important steps taken by this 
legislation.
    Thank you.
    Mr. Gowdy. Thank you, Mr. Gaddis.
    [The prepared statement of Mr. Gaddis follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Gowdy. Mr. Graham?

         TESTIMONY OF JOHN B. GRAHAM, III, PRESIDENT, 
             GRAHAM AND ROLLINS, INC., HAMPTON, VA

    Mr. Graham. Good afternoon, Chairman Goodlatte and 
Committee Members. Thank you for inviting me----
    Mr. Gowdy. Would you make sure your microphone is on or 
pull it closer to you?
    Mr. Graham. Okay?
    Mr. Gowdy. That is perfect.
    Mr. Graham. Thank you for inviting me to testify here 
today.
    Not only am I the president of Graham and Rollins, but I am 
also a member of the Coalition to Save America's Seafood 
Industry, which fights to keep us free to compete in the global 
marketplace.
    America's $31 billion seafood industry supports more than 1 
million U.S. jobs, including almost 184,000 in seafood 
preparation and packaging and many others within our supplier 
and customer networks.
    America's seafood processing industry has struggled over 
the last 20 years as the local labor force has moved on to less 
strenuous full-time jobs and we are forced to find alternative 
labor. We currently use the H-2B program for essential work and 
to augment our full-time American workforce. A most recent 
survey conveyed an average of 2.1 American jobs was created 
from a single H-2B worker within the seafood industry.
    Most coalition members have used the H-2B program for over 
a decade, but it is a constant struggle to make the program 
work. Instead of focusing on growing my small business, I spent 
an inordinate amount of time on H-2B issues. These include the 
Labor Department's tedious paperwork requirements that are 
inconsistent year after year. We have to continually worry 
about not getting visas because the national cap hasn't been 
met or, more recently, worrying that new and more complex DOL 
rules will put me out of business.
    In addition to these requirements, most seafood processes 
are dependent upon a resource that is supplied by Mother 
Nature. We have no control over the availability of blue crabs. 
We also have harvest restrictions as to how many, where, and 
when our seafood may be harvested. Our members are deeply 
frustrated that DOL does not understand the unique nature of 
the seafood industry, from foreign competition to Mother 
Nature, and yet they continue to put regulatory pressures on 
us.
    For example, most seafood processors are in remote coastal 
communities. Our local workforce is tiny and shrinking. Yet DOL 
falsely insists that we simply choose to use the H-2B program 
rather than hire locally. Year after year, we have to prove at 
our expense through advertising and training programs that 
ultimately are unsuccessful that Americans do not want these 
jobs.
    The current rules reflect this misunderstanding, making the 
H-2B program very difficult. And so it is vital that Congress 
take a broad look at the H-2B program and its regulation by any 
government agency as part of this immigration reform effort.
    Chairman Goodlatte, I applaud your creative thinking with 
the H-2C program and inclusion of seafood in this agricultural 
workforce bill.
    First and foremost, I am glad that you have included our 
seafood industry alongside the agricultural industry. These two 
industries are alike in many fashions. Both are production-
oriented, whereas workers' wages are calculated not by just the 
amount of time in fields or within the processing plants but 
also based on individual performance in the form of piece 
wages. We are alike in that we are not providing a service, we 
are providing and manufacturing products from nature's 
resources.
    Secondly, because we are at the mercy of Mother Nature, our 
industry is faced with frequent weather events which can 
abruptly change production schedules. It is for this reason I 
am supportive of the provision of guaranteed employment for 50 
percent of the work hours promised. This is much more flexible 
than DOL's proposed 75 percent guarantee presented in 2011.
    Lastly, I understand the motive behind establishing a trust 
fund, thus creating an incentive for the workers to return 
home. I believe that it was very creative and one which I think 
will prove to be worthwhile and beneficial to the H-2C program.
    I understand the House and Senate are considering several 
sets of guestworker programs. As you work through the process, 
I think I can speak for the entire industry in saying we are 
looking for a program that is dependable and consistent and one 
that allows us to stay in business and keep Americans working.
    H-2C offers a workable solution to obtain a reliable 
temporary workforce without the current problems we face within 
the H-2B program. Our need is that simple and that basic to our 
survival. Unfortunately, we are at a critical point where a 
change has to be made now or another American industry and 
American jobs will be lost.
    I thank you for this opportunity and look forward to 
answering any questions you may have.
    Mr. Gowdy. Thank you, Mr. Graham.
    [The prepared statement of Mr. Graham follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Gowdy. Mr. Rodriguez?

         TESTIMONY OF ARTURO S. RODRIGUEZ, PRESIDENT, 
                 UNITED FARM WORKERS OF AMERICA

    Mr. Rodriguez. Thank you very much, Chairman Gowdy, Ranking 
Member Lofgren, and Members of the Subcommittee. Thank you for 
the opportunity to testify today. My name is Arturo Rodriguez, 
president of the United Farm Workers, and I have the honor of 
serving farmworkers in our Nation. We very much appreciate the 
chance to speak today on behalf of farmworkers throughout the 
United States.
    Our broken immigration system threatens our Nation's food 
supply. Today, we have farmworkers forced to work in the 
shadows of society in difficult working conditions, and farms 
around the country have great challenges hiring a legal 
workforce. We are in a unique moment in our Nation's history, a 
moment in which members of both political parties are coming 
together to confront the question of how to fix our broken 
immigration system. The urgency of the moment requires a 
straightforward analysis of the options before us.
    In that vein, H.R. 1773 falls far short of the challenge 
that faces American agriculture and our Nation's food supply. 
In fact, H.R. 1773 bears a much closer resemblance to the 
horrific Bracero Program of the 1940's-1960's than it does to 
the immigration reform changes we need for the 21st century.
    H.R. 1773 would replace the existing H-2A agriculture 
temporary worker program with the new H-2C program. The H-2C 
program would deprive U.S. farmworkers of jobs by minimizing 
the recruitment obligations of employers, slashing wages, and 
withholding 10 percent of a worker's wage. It would also 
minimize the government oversight, limit workers' access to 
judicial relief and legal assistance, and reduce temporary 
workers' minimum work guarantee.
    Further, it would eliminate the requirement that employers 
provide housing for temporary workers and U.S. workers who 
travel to the worksite and eliminate travel expense 
reimbursement for temporary workers. As a result, H.R. 1773 
would have the practical effect of dramatically cutting wages 
for the hundreds of thousands of farmworkers who are U.S. 
citizens and permanent legal residents.
    All of these changes reverse 50 years of agriculture labor 
law precedent established in response from both political 
parties to the terrible abuses of the Bracero Program of the 
'40's through the '60's.
    In addition, the H.R. 1773 proposal would not provide a 
roadmap to citizenship for the current farmworker labor force 
and would only allow them to apply for temporary worker visas.
    Those of us who work in agriculture know the policies we 
need. We can elevate farmworkers by making changes to 
immigration policy that do the following:
    One, retain as much of the existing workforce in 
agriculture. We can keep people in agriculture by honoring 
farmworkers with the ability to earn permanent legal status. We 
need to have the ability for the existing farmworkers to earn 
permanent legal status to encourage people to stay in 
agriculture and to honor our American values.
    Two, include basic worker protections that ensure that U.S. 
worker wages do not decrease and that stabilize the 
agricultural workforce. The agreement we came to with the 
Nation's agricultural employers does not include many of the 
wage and labor protections we wanted. Our agreement with grower 
associations is a compromise. But the agreement does have the 
basic wage and working protections we need to ensure that 
farmworker wages that are already low do not decrease further.
    We appreciate the Chairman's view on immigration comes from 
a place of his own study of the issue and a desire to address 
the labor needs of agriculture, but we respectfully suggest 
there is a better approach. We want to elevate farm work so 
that neither farmworkers without legal status nor guestworkers 
are the norm in American agriculture.
    We ask this Subcommittee to support a new comprehensive 
immigration process that grants current farmworkers and their 
family members a reasonable and prompt opportunity to earn 
legal immigration status and citizenship and ensures that 
future workers are brought here in a manner that elevates farm 
work in our Nation. By having such a system, we can ensure that 
we continue to have an agricultural industry that is the envy 
of the world and honor all of the women and men who have built 
such an exceptional domestic food supply.
    Thank you very much, Mr. Chairman, and I look forward to 
your questions.
    Mr. Gowdy. Thank you, Mr. Rodriguez.
    [The prepared statement of Mr. Rodriguez follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gowdy. The Chair would now recognize the gentleman from 
Virginia, the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate you 
and the Ranking Member's forbearance on letting me ask 
questions first. I do have to get somewhere else soon.
    But I was pleased to be able to hear the testimony of all 
four of you. You are all making a great contribution to our 
effort to solve this problem of having an agricultural 
guestworker program that works for America and that contributes 
to avoiding a problem that occurred after the 1986 law went 
into effect.
    So, Mr. Rodriguez, let me direct my first question to you, 
along those lines. In your testimony, you state that, ``We need 
to have the ability for the existing farmworkers to earn 
permanent legal status to encourage people to stay in 
agriculture.'' However, your statement is at complete odds with 
the lessons learned from the legalization of illegal immigrant 
farmworkers in 1986. Once they received permanent residence, 
many left the fields for jobs in the cities.
    In fact, Philip Martin, professor of agricultural economics 
at the University of California-Davis, found that by 1997-'98, 
less than 12 years later, the percentage of crop workers who 
had been granted permanent residence through the 1986 act had 
fallen to only 16 percent.
    Isn't it the case that if Congress were to again grant a 
special pathway to citizenship to illegal immigrant 
farmworkers, that growers would soon be left without a labor 
force? Or, if you looked at it differently, if we were to have 
a legal status as a part of the overall solution to immigration 
reform, that we would then have a new demand for workers? 
Because, like 1986, many, when they can work anywhere they want 
to, will go and work elsewhere, creating a shortfall in 
agriculture that we need to replace with a workable guestworker 
program, which is where I think my legislation is headed.
    And when we do that, we are not going to be able to have a 
steady flow of people filling what is a very large demand--some 
people estimate half a million to a million people short--a 
steady demand of people if we constantly grant them lawful 
permanent resident status after they have been a guestworker 
for X number of years.
    Mr. Rodriguez. You know, my understanding is--and I know a 
lot of farmworkers that came through the 1986 program and still 
are working in agriculture today. The estimate today is about 
15 percent, from my understanding, 20-something years later.
    The realities are that, first of all, the legislation that 
we currently have proposed calls for both, taking into account 
folks that have spent a lot of time and demonstrated their 
skills, their professional capacities to work in agriculture, 
that they would be provided legal status and a path toward 
permanent residency and eventually a path toward citizenship. 
We are saying that that 800,000 to 1.1 million, whatever that 
number is, that they have that opportunity to do so.
    But, simultaneously, the agricultural industry, the 
agricultural employers, they have fought very hard and 
debated--we debated a lot about the need for the future flow, 
and there were two new visa programs that were designed for 
that particular purpose.
    So I am very confident that there is going to be an 
opportunity and then, when the need arises within the ag 
industry for future workers, that there will be that 
opportunity to get some.
    And the other reality is, sir, is that, you know, I have 
been doing this, as well, for several decades, and the actual 
wages and benefits in this particular industry hasn't really 
escalated to the point where it is an attractive industry for 
people to want to stay, to have a career, to build their--to 
raise their families, and to gain the opportunities----
    Mr. Goodlatte. But part of that may be because such a large 
percentage of those folks who are not here lawfully are not 
able to use the kind of leverage they would have if they had a 
legal status. And, therefore, it seems to me that when you 
legalize this and you look at a real market-based wage, that 
that market-based wage is likely to rise, whereas the current 
bureaucratic government-sets-the-wage approach is likely to 
miss the target, miss the right amount, and encourages, rather 
than discourages, the use of unlawful immigrant labor.
    So I think we can solve this problem. I think we agree with 
some of what you are saying. We are just saying that, in the 
future, we are not going to be able to have a steady flow of 
800,000 to 1.1 million people flowing through the system, able 
to get a green card, able to leave the workforce, as has 
happened when they were legalized in the past. And we have to 
have a real guestworker program that is just that, a 
guestworker program.
    Let me ask you one more question. You say in your testimony 
that the H-2C program will deprive U.S. farmworkers of jobs by 
minimizing the recruiting requirements. Is it your opinion that 
farmers face a shortage of farmworkers because they don't do 
enough recruiting?
    Mr. Rodriguez. The requirements that I was making reference 
to are in regards to the protections for farmworkers when they 
are being recruited here in the United States, sir.
    Mr. Goodlatte. Thank you.
    My time has expired, Mr. Chairman, and I do have some other 
questions. Perhaps they could be submitted in writing or you 
may ask them.
    Mr. Gowdy. Or I would be thrilled to yield my time to you, 
Mr. Chairman, if you would like it.
    Mr. Goodlatte. No, I think it is fine.
    Mr. Gowdy. Okay. I thank the gentleman from Virginia.
    I would at this point recognize the gentlelady from 
California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Well, thank you, Mr. Chairman.
    Before asking my questions, I would like to ask unanimous 
consent to include in the record of this hearing the list of 
the 71 farm organizations that have signed off on the agreement 
with the farmworkers' union on the agricultural program that I 
referenced earlier.
    And I would also like to ask unanimous consent to include 
in the record a letter or a statement from the Agriculture 
Workforce Coalition that is not in support of H.R. 1773.
    And if I could get unanimous consent for those two 
inclusions.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]

   Members of the Agricultural Workforce Coalition that Brokered an 
                 Agreement with the United Farm Workers

 1. American Farm Bureau Federation
 2. American Nursery & Landscape Association
 3. Florida Fruit & Vegetable Association
 4. National Council of Agricultural Employers
 5. National Council of Farmer Cooperatives
 6. National Milk Producers Federation
 7. USA Farmers
 8. U.S. Apple Association
 9. United Fresh Produce Association
10. Western Growers Association
11. Western United Dairymen
12. Agriculture Coalition for Immigration Reform
13. Agricultural Council of California
14. American AgriWomen
15. American Beekeeping Federation(ABF)
16. American Frozen Food Institute
17. American Mushroom Institute
18. American Sheep Industry Association
19. California Association of Winegrape Growers
20. California Avocado Commission
21. California Citrus Mutual
22. California Giant Berry Farms
23. California Grape and Tree Fruit League
24. California Women for Agriculture
25. Certified Greenhouse Farmers
26. Colorado Nursery & Greenhouse Association
27. CoBank
28. Cooperative Network
29. Council for Burley Tobacco
30. Farm Credit East
31. Florida Citrus Mutual
32. Florida Farm Bureau
33. Florida Nursery, Growers & Landscape Association (FNGLA)
34. Georgia Farm Bureau Federation
35. Georgia Fruit and Vegetable Growers Association
36. Georgia Green Industry Association
37. Hispanic American Growers Association
38. Idaho Dairymen's Association
39. Illinois Farm Bureau
40. Louisiana Farm Bureau Federation
41. MBG Marketing/The Blueberry People
42. National Christmas Tree Association
43. National Farmers Union
44. National Grange
45. National Onion Association
46. National Peach Council
47. National Potato Council
48. Northeast States Association for Agricultural Stewardship (NAAS)
49. Northwest Farm Credit Services
50. OFA, An Association of Horticulture Professionals
51. Oregon Association of Nurseries
52. Produce Marketing Association
53. Red Gold, Inc
54. Society of American Florists
55. South East Dairy Farmers Association
56. Southeast Milk, Inc.
57. State Agriculture and Rural Leaders (SARL)
58. Sweet Potato Council of California
59. Texas Citrus Mutual
60. Texas International Produce Association
61. Texas Vegetable Association
62. U.S. Custom Harvesters, Inc.
63. United Ag
64. United Dairymen of Arizona
65. Utah Dairy Producers
66. United Egg Producers
67. Village Farms International, Inc.
68. Wine America
69. Wine Institute
70. Yankee Farm Credit
71. Yuma Fresh Vegetable Association




                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Ms. Lofgren. You know, I just want to take two statements 
out of this Ag Workforce Coalition, which is signed by 
practically every agricultural employer group in the United 
States. It says, ``The AWC has consistently advocated for a 
separate legal status for experienced agricultural workers that 
are currently working in the U.S. and have been for a period of 
time. We do not believe the bill's approach of funneling them 
into temporary H-2C nonimmigrant programs adequately addresses 
the needs of the industry.'' They further say, as to the at-
will program that the program, as included in the bill, is 
structurally unacceptable.
    I certainly believe that the author of the bill, Chairman 
Goodlatte, has every intent to make a workable program. I do 
not at all disbelieve his good intentions. But I do not think 
this is a workable plan.
    Listening to you, Mr. Graham, about the H-2B program, I 
have heard those complaints about the Department of Labor from 
my own constituents. I think there are issues relative to the 
administration of the program. But I would note that the bill 
has 500,000 visas, a cap. Within that cap would have to be the 
entire current unauthorized workforce, estimated at somewhere 
like 1.8 million people, plus all the new people--there 
wouldn't be any room for new, additional workers--plus the H-2B 
people that are not currently in that program. So if you are 
worried about the cap on H-2B now, you wouldn't get a single 
visa out of this bill because of that cap.
    I do think that the--you know, I am not suggesting that the 
W visa program that was the result of the business community 
and the labor community's negotiations is a perfect plan, but 
it does have huge numbers of visas, certainly considerably more 
than are included in the bill that we are considering today.
    So I think that is worth thinking about as we move forward, 
because we want to make sure that we have adequate protections 
in place so that American workers are not disadvantaged by 
prospective future workers.
    At the same time, we know--I mean, I was thinking, 
listening to Mr. Goodlatte about people who left agriculture, 
and I think some people did. I mean, it is a hard job. On the 
other hand, you know, 1986 was 31 years ago. I mean, if you 
were 40 years old in 1986, you would be 71 years old today. I 
mean, you are not going to be out in the fields. It is an aging 
workforce.
    So we have a need for immigrants in some parts of our 
economy to meet our needs. And I think to have those needs met 
in a legal way and in an orderly way with an adequate number of 
visas available is very advantageous for the United States and 
certainly fair, also, to American workers as well as immigrants 
who would be coming in. Because we are not the kind of country 
that really thinks it is right or fair to mistreat people who 
are coming to our country to work. That is not what America is 
all about, and I know that is not what any one of you are 
about.
    I would just ask, you know, Mr. Rodriguez, the--well, let 
me ask you, Mr. Graham. How many workers do you need in your--
in terms of immigrant workers, how many H-2B workers do you 
have, and how many would you need to have if you didn't have 
all the rigmarole and caps that you deal with?
    Mr. Graham. I would estimate our needs for the seafood 
industry are probably less than 15,000.
    Ms. Lofgren. Okay. And when you get into the meatpacking--
and, as you know, there is a special allocation in the Senate 
bill for meatpacking--what do you think, and can you speak for 
the whole industry, what the need is for immigrant labor in 
meat and chicken?
    Mr. Gaddis. I can't speak with specificity about the 
industry. I can tell you, we hire somewhere between 100 and 300 
a week.
    Ms. Lofgren. Okay. So, clearly, a 500,000 cap for all 
existing farmworkers, all additional farmworkers, plus new 
industries that are not currently in the program would be eaten 
up just in a snap.
    I see my time has expired. I will yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from California.
    I am going to recognize myself and then recognize the 
gentleman from North Carolina and the gentleman from Illinois.
    Mr. Graham, to those who think that you would be able to 
find more domestic workers if only you recruited harder and 
more, what do you say? 
    Mr. Graham. Can you repeat that question again, please?
    Mr. Gowdy. To those who think that you would be able to 
hire more domestic workers if only you recruited more or 
harder, what do you say?
    Mr. Graham. Well, being in the program now for 14 years and 
having to go through the rigmarole of the recruitment process 
and offer 2-week training and having numerous people come and 
apply, to walk out 2 or 3 days into the whole process, you 
know, there is not much more that I can offer for training and 
recruitment. We have done our due diligence, and we are just 
not finding the people out there.
    Mr. Gowdy. Your testimony is eerily reminiscent of what we 
have heard from--what I hear from peach farmers in my own 
district. The effort is there, the recruitment is there. And 
even if domestic workers come, they may not stay past lunch.
    So, Mr. Gaddis, do you have similar experiences or 
different experiences with respect to recruiting domestic 
workers?
    Mr. Gaddis. Very similar. The scale is a bit different.
    But, in 2007, at a beef plant in Greeley, we decided to 
start a second shift, and we strategized as a company as to how 
best to do that and literally barnstormed the country to areas 
where individuals with meatpacking expertise or experience or a 
propensity to even accept a job meatpacking were located. And I 
can tell you, after 3 months of virtually door-to-door 
recruitment efforts and some more sophisticated efforts, we 
didn't have enough people. And we turned to, at the time, 
refugee labor.
    So I think it is a very--in a healthy industry like ours 
and like Mr. Graham's, it is a reality, regardless of the 
circumstance, that there just are not enough U.S. workers to 
fill the jobs.
    Mr. Gowdy. All right.
    Staying with you, how will having the Secretary of 
Agriculture involved in the administration of the H-2C program 
be beneficial, if it will be beneficial, to your industry?
    Mr. Gaddis. Could you repeat the question? I am sorry.
    Mr. Gowdy. How would having the Secretary of Agriculture be 
involved in the new H-2C program be beneficial, if it would be 
beneficial, to your industry?
    Mr. Gaddis. I go back and forth on that. As somebody who 
administers human resources for our company, we do not rely 
on--or we would not rely on H-2C workers as a primary source of 
labor. But I would tell you, to have access to someone or to a 
department that is sympathetic to our plight, our situation, 
outlined by Mr. Graham and I, that is always helpful.
    Mr. Gowdy. Mr. Wicker, you, I believe, are able to speak to 
the litigious nature of some with respect to the current visa 
program. In fact, I think you noted that the North Carolina 
Growers Association has been sued over 30 times and paid over 
$5 million in attorneys' fees.
    Can you speak to the litigation reforms in Chairman 
Goodlatte's bill?
    Mr. Wicker. Yeah. What we should strive for is to try to 
solve farmworkers' problems, legal problems, grievances, et 
cetera, quickly and efficiently. And the best way to do that is 
not with attorneys and lawsuits that are very expensive.
    And so North Carolina Growers Association started in 1990. 
We signed a collective bargaining agreement with the Farm Labor 
Organizing Committee--it is an affiliate of the AFL-CIO--in 
2004. So we have a grievance procedure in place on all of our 
farms with our workers now.
    And so it can work. You can provide a system so that 
farmworkers and farmers can solve their problems without having 
to go to court.
    Mr. Gowdy. Sticking with you, why should you be required to 
provide housing and transportation when other industries do 
not?
    Mr. Wicker. Well, you know, that is a great question. The 
farmers that I work for have been providing housing for a long 
time. It is a magnet. It is a benefit that draws workers to our 
farms and has them be--creates the desire for them to want to 
stay there. So even though this proposal doesn't mandate that 
housing be provided, I suspect that going forward our farmers 
would continue to provide housing.
    But it is a burden, especially in Representative Lofgren's 
home State of California. I have friends in California that 
farm, and housing is a huge issue. And so it is something that 
has to be fixed.
    Mr. Gowdy. Thank you.
    I will now recognize the gentleman from Illinois, Mr. 
Gutierrez.
    Mr. Gutierrez. Thank you very much.
    First of all, I want to thank Chairman Gowdy for calling 
this hearing.
    I want to join the Ranking Member, Zoe Lofgren, in 
expressing our desire to work with the other side of the aisle 
in a bipartisan manner. One of the things that immigration has 
been able to do here in Washington, D.C., is kind of--here is 
Benghazi and the A.P. And, you know, everything else that is 
going on in Washington, D.C. And we are going to vote to repeal 
Obamacare one more time today. I think it will be the 36th, 
37th time. And so Democrats defend it and Republicans attack 
it. But we have not allowed any of that to come down and to 
poison the well in our immigration discussions with Republicans 
and Democrats. We have kept that all outside. And I think that 
that speaks, I believe, to the desire of the American people 
and for us to be responsive to the desire of the American 
people.
    I wanted to say--so I wanted to thank all of you for your 
testimony and for your work and for everything that you do, 
because I think it is important that we hear from all quarters.
    But I also want to echo something that Congresswoman Zoe 
Lofgren mentioned. It seems to me that, if out here--that is, 
the private sector, the business community--has reached an 
agreement with those that represent the labor community, that 
we shouldn't meddle. I mean, it seems to me that there is no 
reason, when there is an agreement that has already been 
reached between those who represent the farmworkers and those 
that represent so many other diverse industries. Why we don't 
simply accept that men and women of good faith have bargained 
and reached an agreement and why we can't embrace that is 
something I think we need to ask ourselves as we move forward.
    I would like to say that, for me, this is a very important 
part of what will be comprehensive immigration reform, a 
somewhat unique part of what will be comprehensive immigration 
reform, because of the relationship that the farm-work 
community has to a movement for justice, for a movement 
embodied in Cesar Chavez, for a movement embodied in what I 
believe is making America a better, greater place for social 
justice and what that spirit entails.
    And it really is in the support that across America 
farmworkers have, that special place that we not only have for 
farmworkers every night when we sit down for dinner to eat the 
crops that they have harvested for us, to do that backbreaking, 
dirty, filthy work--which we all know we have trouble, let's 
face it.
    We have had testimony here before because Chairman Gowdy 
has brought people here who have taught us that we are going to 
have to fundamentally make a decision: Are we going to eat food 
that is grown in foreign countries by foreign hands, or are we 
going to have food that is grown here protected by us, by 
foreign hands? Because let's face it, nobody here on this panel 
is sending their kids to school to become a farmworker. And the 
population doesn't exist out on your farm or rural areas 
because that population isn't there. We are going to need 
people to continue to come to America to do that work.
    And I just want to say, if it is backbreaking work, when we 
discuss here comprehensive immigration reform, I think we have 
to get away from this notion and we have to stand up for 
farmworkers, we have to stand up for those who provide us our 
food, because, you know, that is an essential ingredient to our 
safety. Watch the future. Food is going to become a condition 
of your survival as a Nation, and who picks that food is going 
to become a condition.
    I would like to ask Arturo: Arturo, the issue of 
citizenship has been brought up. Tell me from your perspective, 
why is it important that farmworkers become citizens of the 
United States--be allowed the opportunity to become citizens of 
the United States?
    Mr. Rodriguez. Thank you very much, Congressman Gutierrez.
    I mean, first of all, farmworkers have been here now for, 
in some cases, since 1986, since the last immigration bill, 
working in agriculture. They have demonstrated here to our 
Nation, as has been mentioned by many of the Members already, 
it is difficult work, it is hard work, but it requires a lot of 
skills and profession.
    And I think the farmworkers that are here today have come 
here because they want to make a contribution to America. They 
want to make a contribution to our economy. And they are 
willing to do what many have chosen not to do any longer here 
in this Nation.
    And so it is a way of honoring those individuals, and it is 
a way of ensuring that they do stay in the agricultural 
industry to continue to meet further requirements that are 
necessary in order to gain a path to legal permanent residency 
and eventually to citizenship.
    So that I believe, in terms of ensuring that we are going 
have a secure labor force, that we take the estimated 800,000 
to 1.1 million unauthorized farmworkers currently working in 
agriculture today, we give them that opportunity to work and to 
gain the legal permanent residency, to earn that, as everyone 
else would, under comprehensive immigration reform and to 
eventually be on that path to citizenship so that they can 
enjoy the fruits of America just like anyone else can here in 
this Nation.
    So we welcome that opportunity, and we hope that as we 
continue the process that that becomes the decision that is 
made by Members of Congress as well as in the Senate to move 
forward.
    Mr. Gutierrez. I just want to end by saying I thank the 
Chairman for his indulgence in allowing Mr. Rodriguez to finish 
his answer.
    And I just want--as we move forward, you will see the bill. 
And when it comes to the STEM industry, the high-tech industry, 
I assure you, they are going to say bring tens of thousands of 
workers to America, but they are going to give them green cards 
and they are going to allow them to bring their families. I am 
just saying, fight for your own people in your own industry the 
same way Google and Apple and others fight for high-tech. 
Somebody has to do the backbreaking work.
    Thank you so much. And I appreciate the Chairman's 
indulgence.
    Mr. Holding. [presiding.] Thank you.
    I am going to recognize Mr. Garcia from Florida, and then I 
will recognize myself and be the final questioner.
    Mr. Garcia. Thank you, Mr. Chairman.
    You know, the other day, someone who doesn't agree with 
immigration reform said to me, ``You know, Joe, if somebody 
walked into your house and you didn't invite them, just walked 
around and then left, you would want them prosecuted.'' And my 
response was, if somebody walked into my house, filled my 
refrigerator with fresh fruit, painted my walls, cleaned my 
house, put my grandmother to bed, then went outside and mowed 
the lawn, I think I would owe them money, not want to prosecute 
them.
    The folks that come to this country come for the very best 
that our Nation has to offer, which is opportunity and freedom. 
And, clearly, they pay a grave price for it.
    I want to talk about something that, Artie, you have been 
working on for a very long time, which is, for years, the 
negotiated agreement between your folks and the Chamber of 
Commerce--which, in truth, is what we should be talking about 
here, right? An agreement that you in good faith negotiated. I 
think Mr. Wicker was part of the group who singed off on that 
agreement.
    I want to you tell me about the time you put into that. And 
did you think you were just negotiating with the Chamber or did 
you think you were negotiating in good faith to put a bill 
together that would be accepted by Members of the other side?
    Mr. Rodriguez. We actually became engaged--thank you very 
much, Congressman Garcia.
    We became engaged initially in this process to bring about 
immigration reform for the agricultural workers and the 
industry as a whole with agricultural employers dating back to 
the year 2000, about 13 years ago. And, you know, at that 
particular time, we met with the heads, the CEOs, the 
presidents of a number of different agriculture associations 
throughout the United States. And we initially fashioned 
AgJOBS, which was a legislation that was being utilized and 
being discussed and debated for many, many years now.
    About 6 months ago, we were approached by many of the same 
agriculture employers and different associations to look at and 
discuss a new immigration reform package for the agricultural 
industry that would impact both on the employers as well as on 
farmworkers. And we began that particular process and, as a 
result of that, fashioned an agreement that we felt was a 
compromise but yet something that all the parties could agree 
to.
    And we met with 12 different associations that ranged from 
the American Farm Bureau to the Western Growers Association to 
nurserymen, sheep herders, dairies, apples, all the various 
citrus associations from Florida. All the various major 
agricultural associations throughout the United States came to 
the table, and our voices are all heard and debated and 
discussed. And we finally reached an agreement the day that the 
comprehensive bill on the Senate side was being submitted.
    Mr. Garcia. Thank you for your work, and hopefully it won't 
be ignored over here.
    Mr. Wicker, I believe you were part of the group that 
signed off on this. Am I correct?
    Mr. Wicker. I am here today to testify for North Carolina 
Growers, and I am treasurer of the USA Farmers Group. And USA 
Farmers was part of--is part of the agricultural workforce 
coalition that negotiated the compromise that resulted in the 
Senate bill.
    Mr. Garcia. How did you feel about that compromise?
    Mr. Wicker. I think it is fine; I don't think it will pass 
the House. So we need to get a bill that will pass the House 
and go to conference and get something to the President's desk.
    Mr. Garcia. Well, you let us take care of the politics of 
it, but----
    Mr. Wicker. Sure.
    Mr. Garcia [continuing]. You--I want to get an 
understanding. I mean, Mr. Rodriguez described his working 
through it. Could you give me your sense as someone who was on 
the other side working through this bill, the compromise 
required, the struggle? Maybe give us a sense from your 
perspective.
    Mr. Wicker. I was not directly involved in the 
negotiations.
    Mr. Garcia. I am sure they were checking off with you 
through it, right?
    Mr. Wicker. Pardon?
    Mr. Garcia. That you were part of discussions as the 
negotiations were going on.
    Mr. Wicker. Sure. And we think at USA Farmers that they got 
as good a bill as they could possibly get----
    Mr. Garcia. Good.
    Mr. Wicker [continuing]. Out of the Senate compromise.
    Mr. Garcia. Thank you.
    You know, Mr. Rodriguez, you have been in the fields, and 
you know how hard it is to work. Today someone from the other 
side alleged that these are jobs that American workers are 
willing to do and anxious to do. In your years and with all 
your folks out there, do you find that to be true, that, you 
know, U.S. Workers are willing to do the work that the American 
farmworkers are doing today, and, in particular, those without 
documentation?
    Mr. Rodriguez. Well, actually, yes, Mr. Garcia, we estimate 
there are approximately 600,000 U.S. farmworkers, U.S. either 
citizens or legal permanent residents that are currently 
working in agriculture today. And we very much believe that 
that number would grow significantly when this legislation 
passes and gets implemented and gives farmworkers a right to 
gain legal status in working in the agricultural industry.
    So there is a sizable number of folks that continue to work 
in agriculture, and we hope that, through this process, as 
well, we continue to elevate farm work as an honorable work, as 
a career that all of us can pursue here in the United States.
    Mr. Garcia. Thank you.
    I want to thank all the witnesses.
    Mr. Chairman, thank you. And I yield back the balance of my 
time.
    Mr. Holding. Thank you, Mr. Garcia.
    I will recognize myself for 5 minutes.
    I want to thank all of our witnesses here today. I want to 
particularly thank Mr. Wicker, who has been an informed, 
intelligent, and reliable voice on these issues in North 
Carolina for a long time. And I have known him beyond this 
capacity in this job but even when I was a staffer here on 
Capitol Hill.
    And so, welcome.
    I want to turn specifically to North Carolina. Mr. Wicker, 
you were talking about the 500,000-worker cap on this bill and 
how it really should be uncapped. I want to talk about 
specifically what is happening in North Carolina now. How many 
guestworkers are we using in North Carolina at the moment?
    Mr. Wicker. NCGA is not the only user of guestworkers in 
North Carolina. This year, it will be 10,000 maybe, out of a 
national total of 70,000 possibly.
    Mr. Holding. Well, those 10,000 workers, what percentage 
does that represent of the total amount of workers that we need 
in North Carolina to handle these agricultural jobs?
    Mr. Wicker. I think that represents in the range of 10 to 
15 percent.
    Mr. Holding. Wow. And the folks who are making up the 
difference, the workers who are making up the difference, where 
are they coming from? What are they composed of?
    Mr. Wicker. I think that group is largely composed of 
undocumented workers. I mean, everybody is in agreement across 
the board that the overwhelming majority, somewhere between 50 
and 70 percent, of migrant seasonal agricultural workers are 
undocumented workers.
    Mr. Holding. So if the program is capped at 500,000, we in 
North Carolina would need--you are saying 100,000 of those 
would have to come to North Carolina?
    Mr. Wicker. I think that is correct.
    Mr. Holding. And the rest of the States would just have to 
divvy up what is left, right?
    Mr. Wicker. Yes.
    Mr. Holding. Okay.
    A few other questions for you, Mr. Wicker. The concept of 
at-will temporary guestworkers enjoys broad support. What would 
be some of the advantages of hiring at-will guestworkers?
    Mr. Wicker. I think at-will, the concept here is largely 
borne out of west coast agriculture. And so the at-will 
provisions contemplate having a workforce that can move more 
freely from short-term agricultural job to short-term 
agricultural job.
    In North Carolina, we have an extremely diverse ag 
portfolio, and so we have been able to string a lot of 
different short-term jobs together, like tobacco, cucumbers, 
sweet potatoes. So our growers overwhelmingly prefer the 
contract provisions, because the margins are so tight on the 
farm, we want to know if we are going to the bank to borrow a 
million dollars in operating money and push our equity into the 
center of the table and plant these crops, that we want to know 
that we have workers who want to stay until the end of the 
harvest season.
    Mr. Holding. And you bring up a valid point, in that you 
might bring in a guestworker to work on a tobacco crop, but 
then that merges over into a sweet potato crop, and then before 
too long they have been here for a period of time that takes 
them out of the classification of being a seasonal worker, 
because they are working multiple crops.
    what are some of the complications there?
    Mr. Wicker. Well, the current program is capped at--in 
statute at a year, but in reg 10 months. Our growers have 
figured out a way to live inside the parameters of this 
program, so the longest workers that we have in North Carolina 
are 10 months.
    But agriculture is changing; it is consolidating. We are 
moving to year-round productions, especially in the Sun Belt 
States. And so we are going to have to move to a longer-term 
visa in the future.
    Mr. Holding. Are there any problems--I think under 
Obamacare seasonal workers are exempted from being covered by 
Obamacare, correct?
    Mr. Wicker. I was hoping you weren't going to ask me a 
technical question about Obamacare. But, yes, as I understand, 
the two tests that you have to complete to decide if have you 
coverage, you have to have more than 50 permanent employees. 
So, you know, when you get into that longer visa----
    Mr. Holding. They may very well be covered by it.
    Mr. Wicker [continuing]. They very well could be covered.
    Mr. Holding. That would add a significant cost to our 
farmers per worker.
    Mr. Wicker. That is absolutely true.
    Mr. Holding. Well, I see my time is expiring. I am going to 
confer with my distinguished Ranking Member--ah.
    I will recognize the distinguished lady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I want to thank the members for their 
patience, that we were on the floor debating on a matter that 
caused me to have to run from the floor. And thank you for your 
courtesies.
    And I did not want to miss the opportunity, first of all, 
to thank the witnesses for being here, to acknowledge the 
legislation that is before us.
    I think, over the years, we have had, Mr. Chair, 
Congressman Lofgren work tirelessly on this with one of our 
former Members, Mr. Berman. And I think my good friend, Mr. 
Rodriguez, knows that we have been on a long journey.
    I cannot start any line of questioning without saying that 
the real commitment to the Nation is comprehensive immigration 
reform. And what I remember in terms of our work, with the 
years gone past, we worked on issues such as poor housing for 
farmworkers, poor health conditions, poor working conditions. 
We were just at the bare minimum of trying to create a decent 
way of life.
    And I am also reminded of the friendship of Cesar Chavez 
and Martin Luther King. It has been a long, long journey.
    And I, frankly, believe that if we look at this issue and 
do not provide a component that deals with the rights of 
workers, then we may be going in the same cycle again.
    So I just want to ask, Mr. Rodriguez--and I may have time 
for someone else--to be able to share with me your thoughts 
about whether there is a framework of protecting workers.
    And I want to ask sort of a pointed question, that 
farmworkers are everybody. If 500 American workers wanted to 
come and do that work, everybody is embraced as a farmworker. 
Is that not right, Mr. Rodriguez?
    If we fill up the whole needs of farmworkers with people 
who here in the United States--no one is making a decision to 
weed them out or not let them come or not let the farming 
industry recruit them. So let's put that on the line, that the 
farm industry--we started as farmers. Obviously, people have 
moved to cities and moved into different capacities. But I 
don't want it to be said that we either couldn't find or we 
wouldn't recruit individuals who are here in the United States.
    And so you might want to comment on that, but then the 
framework of the underlying legislation in terms of protecting 
workers.
    Mr. Rodriguez. Thank you very much, Congresswoman Jackson 
Lee.
    You know, one of the reasons why we don't feel that H.R. 
1773 really is the type of legislation that we are looking for 
here and why we have spent so much time sitting down with 
employer associations over the course of the last few years and 
months was to really design a program that ensured that the 
jobs of U.S. workers were protected, first of all, that it was 
very important to maintain their jobs, that they have an 
opportunity to maintain their jobs and the wage levels that 
they had, and that we would not utilize and bring in 
guestworkers for the purpose of lowering those wages or 
deteriorating those working conditions.
    And what we find with H.R. 1773, that they take away a lot 
of those protections. My understanding is, via the legislation, 
there would be no paid transportation, inbound transportation, 
for workers that are brought in from a country to work here in 
the crops. And, as a result, it is very difficult for them to 
pay that money up front. They come from countries and from, 
more than likely, situations where they haven't been working 
prior to that in terms of coming here.
    Somebody talked about housing a little bit earlier. It is 
important. I mean, here are the lowest-paid workers in our 
country, and where are they going to get money to pay rent, to 
find housing, especially in rural communities that already have 
a difficult time in terms of achieving that? So that without 
providing some type of housing or housing allowance, there is 
not going to be the opportunity for people to--we are going to 
go back to the camps that we found during the Bracero days and 
those types of things and reverting back forward.
    The enforcement mechanism is an issue of real importance to 
us, to make sure that there is someone that is going to be 
watching and observing and ensuring that all the parties are 
doing what they should be doing in relationship to that.
    And the wages is of utmost importance and ensuring that, 
again, we have a wage level that is set that is going to, 
again, provide those workers with what they deserve, what they 
should be paid to be able to work here, and that they are not 
utilized in a way to undercut what U.S. workers and what 
American workers are making at the particular farm where they 
are at.
    Ms. Jackson Lee. Just to follow up with one quick question, 
Mr. Gaddis. I am sorry I had a coughing spell here. I didn't 
want to be unfair to the growers. And just this quick question.
    One of the things--I think what Mr. Rodriguez has indicated 
are issues that we need to work on together. One of things that 
will help you, of course, if our colleagues will allow the 
Affordable Care Act to stay in place, you will have some form 
of health insurance, depending on how we formulate the 
comprehensive immigration reform.
    But the question is--we respect the industry. It is an 
important industry for both the United States, the food 
industry, growers, farmers, and the world. Would you welcome 
some of the fixes that Mr. Rodriguez has talked about, housing 
and certain rights, so that you have a healthy and committed 
and dedicated workforce that is there for you when you need 
them?
    Mr. Gaddis?
    Mr. Gaddis. There are some distinctions to be drawn between 
the workforce that Mr. Rodriguez is involved with and ours in 
the meatpacking industry. I can tell you that ours are good 
jobs, good-paying jobs that provide employees without a lot of 
education to become upwardly mobile. That is why meatpacking 
has historically been a first-generation job.
    We are, first of all, supportive of the initial 36-month 
length of stay. For us in the meatpacking industry and the 
coalition, the critical issue on that front relates to the 
subsequent stays of 18 months. It takes us somewhere between 4 
and 8 months to teach someone a trade, teach someone a 
meaningful trade. And so, in order to get a return on that 
investment, we would need them to stay longer.
    And then the other thing that we would ask for is 
unification of family, spouse's dependents, the opportunity for 
unification of spouse's dependents.
    Ms. Jackson Lee. But you wouldn't mind if--all of the 
witnesses wouldn't mind if we improve this legislation or in 
comprehensive immigration reform put in some of the features 
that Mr. Rodriguez has spoken of.
    Mr. Wicker. I am sorry. I didn't hear your question.
    Ms. Jackson Lee. That you wouldn't mind fixing the 
legislation to put in some of the features that Mr. Rodriguez 
is speaking of to make it more palatable for the worker.
    Mr. Wicker. Let's get together and talk about it. It is all 
about a balanced package. We have to take care of the workers.
    Ms. Jackson Lee. Mr. Graham, before I am gaveled down?
    Mr. Holding. The gentlelady's time has expired.
    Ms. Jackson Lee. But Mr. Graham can say yes or no?
    Mr. Graham. Coming from the H-2B program, some of the 
things that we are talking about we were doing. So we have no 
problem with some of those provisions.
    Ms. Jackson Lee. I thank the Chair and Ranking Member for 
their indulgence. My time has expired.
    Mr. Holding. I thank the gentlelady from Texas.
    This concludes today's hearing. Thanks to all of our 
witnesses for attending.
    And, without objection, all Members will have 5 legislative 
days to submit additional written questions for the witnesses 
or additional materials for the record.
    This hearing is adjourned.
    [Whereupon, at 1:51 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
